 Report No. D-2008-100                June 13, 2008




Contract Procedures for Educational Support Services
    Acquired by the National Defense University
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
NDU                           National Defense University
OPM                           Office of Personnel Management
OSD                           Office of the Secretary of Defense
SOW                           Statement of Work
U.S.C.                        United States Code
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704

                                                                                   June 13,2008

MEMORANDUM FOR THE HONORABLE BYRON J. DORGAN, UNITED STATES
                 SENATE
               UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION,
                 LOGISTICS, AND TECHNOLOGY
              PRESIDENT, NATIONAL DEFENSE UNIVERSITY


SUBJECT: Contract Procedures for Educational Support Services Acquired by the National
         Defense University (Report No. D-2008-100)

We are providing this report for your information and use. We performed the audit in response to
a congressional request. We considered comments from the National Defense University when
preparing the final report.

Comments on the final repmi conformed to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201) or Mrs. Priscilla H. Nelms at (303) 676-7393 (DSN 926-7393). The
team members are listed inside the back cover.




                                            Richard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
                    Report No. D-2008-100 (Project No. D2007-D000CG-0172.000)
                                           June 13, 2008

               Results in Brief: Contract Procedures for
               Educational Support Services Acquired by
               the National Defense University
                                                         requirements of Federal Acquisition Regulation
What We Did                                              Part 6.303-1 and Section 8038 of Public
At the request of Senator Byron L. Dorgan, we            Law 101-511.
reviewed the National Defense University’s
current contracting procedures for educational           What We Recommend
support services, including contract W9137B-                The President of the National Defense
06-P-0107 awarded to Mr. Douglas Feith, and                 University should:
other contracts awarded to Office of the                    • Evaluate current procedures and controls
Secretary of Defense political appointees.                     to ensure statements of work are
                                                               properly justified and identify the
What We Found                                                  qualifications and skills needed without
The National Defense University should                         unnecessarily limiting competition as
improve its procedures for awarding educational                required by Federal Acquisition
support service contracts, based on the contracts              Regulation Part 7.102.
reviewed. Contract specifications may have                  • Ensure the proper type of solicitation is
been tailored so narrowly that, in some cases,                 used when obtaining educational support
competition was limited.                                       services including the justification and
• Mr. Feith’s contract did not have adequate                   use of sole-source procurement when
    market research and contained specifications               appropriate in accordance with Federal
    that were written too narrowly to ensure full              Acquisition Regulation Part 6.302-1.
    and open competition.
• Other solicitations for these services                 Client Comments and Our
    frequently resulted in the receipt of only one       Response
    bid from the recommended source.                     The President of the National Defense
                                                         University concurred with both
The use of simplified acquisition procedures             recommendations. We consider the
was incorrect for some contracts.                        concurrences responsive to our
• Some services were procured as commercial              recommendations. Please see the
   items without meeting the required                    recommendations table on the back of this page.
   definition in Federal Acquisition Regulation
   Part 2.101.
• Some procurement values were above the
   simplified acquisition threshold required in
   Federal Acquisition Regulation Part 13.
• Some solicitations were advertised for
   insufficient periods of time.

Additionally, contracting officials awarded
contracts to contractors from unsolicited
proposals without meeting the justification                       National Defense University

                                                     i
           Report No. D-2008-100 (Project No. D2007-D000CG-0172.000)
                                  June 13, 2008


Recommendations Table
Client                          Recommendations        No Additional
                                Requiring Comment      Comments Required
President of National Defense                          1.a. and 1.b.
University




                                       ii
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objective                                                            1
       Background                                                           1
       Review of Internal Controls                                          1

Finding. Contract Procedures for Educational Support Services Acquired by
         the National Defense University                                    3

       Recommendations, Client Comments, and Our Response                    9

Appendices

       A. Scope and Methodology                                             11
              Prior Coverage                                                12
       B. Laws and Regulations                                              13
       C. Comparison of Statements                                          20
       D. List of Contracts Reviewed                                        24
       E. Congressional Request                                             30

Client Comments
       The National Defense University                                      31
Introduction
Objective
Our audit objective was to determine whether the current National Defense University
(NDU) contracting procedures for educational support services are in accordance with the
Federal Acquisition Regulation (FAR) and DoD guidance, and specifically for
contract W9137B-06-P-0107.

See Appendix A for a discussion of the scope and methodology.

Background
NDU is the Center for Joint Professional Military Education and operates under the
direction of the Chairman of the Joint Chiefs of Staff. The NDU mission is to prepare
military and civilian leaders to address national and international security challenges
through multidisciplinary educational programs, research, professional exchanges, and
outreach.

The United States Army Contracting Agency authorized NDU to have its own
Contracting Directorate for acquisitions. According to a Contracting Directorate official,
NDU awarded 556 educational support contracts totaling more than $92 million from
January 2000 through December 2006.

On March 7, 2007, Senator Byron L. Dorgan requested that the DoD Office of Inspector
General:

   •   investigate the events surrounding the award of NDU contract W9137B-06-P-
       0107 to Mr. Douglas Feith,
   •   review the contracting procedures currently used by NDU, and
   •   identify other Office of the Secretary of Defense (OSD) political appointees who
       have been awarded NDU educational support services contracts since January
       2000.

Review of Internal Controls
We identified material internal control weaknesses for NDU as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. The weaknesses are related to procurement procedures of the 47
contracts reviewed. Although NDU had internal control procedures in place, we
identified weaknesses resulting in inadequate procedures for full and open competition,
inappropriate use of simplified acquisition procedures, and insufficient response time for
solicitations. Implementing Recommendations 1.a. and 1.b. will improve controls over
NDU’s procurement of educational support services. A copy of the final report will be
provided to the senior Army official responsible for internal controls in the Department
of the Army.



                                            1
Contracting Procedures for Educational
Support Services Acquired by the National
Defense University
NDU procedures for the solicitation and award of educational support services contracts
need to be improved to be in accordance with the United States Code (U.S.C.), FAR,
Defense Federal Acquisition Regulation Supplement (DFARS), and other guidance,
based on the contracts we reviewed.

   •   Statements of Work (SOW) may have been written too narrowly to result in full
       and open competition.
   •   The use of simplified acquisition procedures was inappropriate for some
       contracts.
   •   Solicitations were advertised for insufficient periods of time.
   •   In two cases, contracting officials awarded contracts to contractors from
       unsolicited proposals without meeting the justification requirements of FAR
       Part 6.303-1, “Requirements” and Section 8038 of Public Law 101-511, “DoD
       Appropriations Act, 2008.”

These issues can potentially result in a lack of fair and open competition for educational
support services contracts and in higher costs for contractor services.

National Defense University Contracting Criteria
See Appendix B for a list of applicable laws and regulations for NDU contracting
procedures.

Statements of Work
NDU awarded an educational support service contract to Mr. Douglas Feith that
contained specifications that were too narrowly tailored to result in full and open
competition. Other competitively solicited educational support services contracts were
frequently awarded based on receiving just one bid from the only recommended source.

Award of Mr. Douglas Feith’s Contract
NDU awarded contract W9137B-06-P-0107 to Mr. Feith on July 12, 2006. The purpose
of the contract was to present lectures, produce a report, and provide consultation and
mentoring to NDU staff and students. NDU received only Mr. Feith’s proposal for the
solicitation and determined that he met all of the specifications required.

The initial contract award was $37,375 for the period from July 14 through
September 15, 2006. The contract also contained three option periods with an estimated
total value of $464,399. On August 16, 2006, Mr. Feith submitted an invoice to NDU for
$6,066 for services from July 14 through August 13, 2006.



                                             3
In July 2006, NDU changed presidents. In an e-mail, the incoming president stated that
she was concerned with the contract and whether Mr. Feith was in the position to perform
several of the required contract deliverables. NDU officials consulted with DoD, NDU
legal staff, and contracting officials.

NDU officials then contacted Mr. Feith. They agreed to cancel the contract. On
August 25, 2006, NDU and Mr. Feith canceled the contract by a mutual agreement,
reflecting no fault by either party, and no cost to the Government. As part of the
cancellation agreement, Mr. Feith withdrew his request for payment of the initial charges
of $6,066.

We reviewed the events and procedures surrounding the award of Mr. Feith’s contract
and compared it with the U.S.C., FAR, DFARS, and other applicable guidance to identify
deviations from these requirements. We also gathered written and testimonial evidence
on the administration, solicitation, and award process for the contract.

Several factors led us to the conclusion that market research was inadequate and the
solicitation was too restrictive to promote full and open competition.

   •   On August 8, 2005, the Secretary of Defense made detailed statements regarding
       Mr. Feith’s background and qualifications during Mr. Feith’s farewell ceremony.
   •   The background and qualifications cited in the farewell ceremony closely mirror
       the detailed requirements cited in NDU’s SOW for the solicitation.
   •   NDU’s contracting office notified Mr. Feith that the solicitation had been issued.
       He was the only contractor who received the notification.
   •   Mr. Feith’s statement of qualifications for the solicitation indicated that he fully
       met all of the detailed requirements cited in the SOW.
   •   Mr. Feith was the only person who responded to the solicitation.

NDU officials provided conflicting statements regarding who determined the
requirements listed in the SOW for this contract. Some officials attributed the SOW
development to the former NDU President, while the former president said that other
NDU officials assisted him in developing the SOW.

See Appendix C for a comparison of the statements made in the various documents.

               FAR Part 7.102 (a) (2), “Policy,” states:
               Agencies shall perform acquisition planning and conduct market
               research (see Part 10) for all acquisitions in order to promote and
               provide for--
                                 [Sentence omitted]
                        Full and open competition (see Part 6) or, when full and open
                        competition is not required in accordance with Part 6, to
                        obtain competition to the maximum extent practicable, with
                        due regard to the nature of the supplies or services to be
                        acquired (10 U.S.C. 2301(a)(5) and 41 U.S.C. 253a(a)(1)).




                                                 4
Based on a comparison of the statements made by the Secretary of Defense, the SOW,
and the proposal submitted by Mr. Feith—and considering that no other offers were
received—the solicitation was tailored so narrowly that only Mr. Feith was likely to
respond. It also makes it more likely that other responders could not meet all of the
detailed requirements to the same extent as Mr. Feith, even though the solicitation stated
that all specifications did not have to be met. The solicitation also stated, “Experience is
more important then [sic] cost.” Again, this gave an advantage to someone who had
actually performed all of the functions as had Mr. Feith. If NDU needed Mr. Feith’s
specific expertise, they should have justified a sole-source contract under FAR
Part 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will
Satisfy Agency Requirements.”

Other Educational Support Services Contracts
When formulating specifications for educational support services, NDU officials may
have tailored the SOWs so narrowly that competition was limited.

We obtained a list of 556 contracts valued at more than $92 million that were identified
by NDU as educational support services contracts awarded from January 2000 through
December 2006. Of the 556 contracts, we judgmentally selected and analyzed
47 contracts, including Mr. Feith’s. Of the 47 contracts, 35 were advertised
competitively and 12 were awarded noncompetitively. For the 35 contracts that were
advertised on a competitive basis, we found the following:

   •   25 of the 35 (71.4 percent) contracts were awarded based on the receipt of a single
       bid,

   •   29 of the 35 (82.9 percent) contract solicitations contained a single recommended
       source, and

   •   all but one of the contracts containing a single recommended source were
       awarded to the recommended source.

NDU officials attributed the lack of bids to the specialized nature of the work done at the
university.

Although we are not projecting these results to the universe of educational support
services contracts awarded by NDU during the selected period, the results raised
concerns because so many of the sample contracts displayed these characteristics. The
lack of bids from other than the recommended source was a strong indication that there
was inadequate market research, and there was only one person or organization that could
fulfill the requirements specified.

See Appendix D for a list of the 47 contracts we reviewed.




                                              5
Simplified Acquisition Procedures
The use of simplified acquisition procedures was inappropriate for some educational
support contracts. NDU incorrectly procured educational support services as commercial
items and advertised solicitations for insufficient periods of time.

The standards for classifying a procurement as a simplified procurement are contained in
FAR Part 13, “Simplified Acquisition Procedures.” The FAR encourages the use of
simplified acquisition procedures as long as the requirements for these solicitations are
met. NDU did not meet the requirements of FAR Part 2, “Definitions of Words and
Terms”; Part 5, “Publicizing Contract Actions”; or Part 13, “Simplified Acquisition
Procedures,” when procuring educational support services.

A contracting officer stated that all of the NDU educational support services contracts are
considered commercial items because education/academia is universal and not limited to
the Government. NDU classified all 47 contracts reviewed as the procurement of
commercial items. Many of these contracts do not meet the definition of commercial
items as specified in the FAR. These services are not readily available on the commercial
market, nor are they catalog items. And, in cases such as Mr. Feith’s, these were uniquely
military-related educational services. A commercial item involving services is defined by
FAR Part 2.101(b) as follows:

               “Commercial Item” means-- … (6) Services of a type offered and sold
               competitively in substantial quantities in the commercial marketplace
               based on established catalog or market prices for specific tasks
               performed or specific outcomes to be achieved and under standard
               commercial terms and conditions. For purposes of these services—
               (i) “Catalog price” means a price included in a catalog, price list,
               schedule, or other form that is regularly maintained by the
               manufacturer or vendor, is either published or otherwise available for
               inspection by customers, and states prices at which sales are currently,
               or were last, made to a significant number of buyers constituting the
               general public; and (ii) “Market prices” means current prices that are
               established in the course of ordinary trade between buyers and sellers
               free to bargain and that can be substantiated through competition or
               from sources independent of the offerors.

Twenty-three of the 47 contracts were over the simplified acquisition threshold of
$100,000. These contracts ranged in value from $101,000.00 to $1,069,799.88. NDU
inappropriately used the following FAR citation as justification for the purchase of
educational support services over the $100,000 simplified acquisition threshold.

               FAR Subpart 13.5, “Test Program for Certain Commercial Items”:
               (a) This subpart authorizes, as a test program, use of simplified
               procedures for the acquisition of supplies and services in amounts
               greater than the simplified acquisition threshold but not exceeding
               $5.5 million ($11 million for acquisitions as described in 13.500(e)),
               including options, if the contracting officer reasonably expects, based
               on the nature of the supplies or services sought, and on market
               research, that offers will include only commercial items. Under this test
               program, contracting officers may use any simplified acquisition



                                                  6
               procedure in this part, subject to any specific dollar limitation
               applicable to the particular procedure. The purpose of this test program
               is to vest contracting officers with additional procedural discretion and
               flexibility, so that commercial item acquisitions in this dollar range
               may be solicited, offered, evaluated, and awarded in a simplified
               manner that maximizes efficiency and economy and minimizes burden
               and administrative costs for both the Government and industry (10
               U.S.C. 2304(g) and 2305 and 41 U.S.C. 253(g) and 253a and 253b).

Sufficiency of Solicitation Time
According to FAR Part 5.203, all contracts over the simplified acquisition threshold must
be solicited for at least 30 days. Seventeen contracts were above the simplified threshold
but were solicited for less than 30 days.

               FAR Part 5.203, “Publicizing and Response Time”: Whenever agencies
               are required to publicize notice of proposed contract actions under
               5.201, they must proceed as follows: … (c) Except for the acquisition
               of commercial items (see 5.203(b)), agencies shall allow at least a 30-
               day response time for receipt of bids or proposals from the date of
               issuance of a solicitation, if the proposed contract action is expected to
               exceed the simplified acquisition threshold.

Soliciting for less than the 30-day requirement reduces the opportunity for full and open
competition.

Unsolicited Proposals
There was no written justification in the contract files to support the sole-source award of
two contracts when unsolicited proposals were submitted. These were the only
unsolicited proposals in the sample of 47 educational support service contracts selected
for review. According to FAR Part 6.303-1, these types of awards must be justified
based on the specific circumstances specified in FAR Part 6.302.

               FAR Part 6.303-1, “Requirements”: (a) A contracting officer shall not
               commence negotiations for a sole source contract, commence
               negotiations for a contract resulting from an unsolicited proposal, or
               award any other contract without providing for full and open
               competition unless the contracting officer--(1) Justifies, if required in
               6.302, the use of such actions in writing; (2) Certifies the accuracy and
               completeness of the justification; and (3) Obtains the approval required
               by 6.304.”

               FAR Part 6.303-2, “Content”: (a) Each justification shall contain
               sufficient facts and rationale to justify the use of the specific authority
               cited. As a minimum, each justification shall include the following
               information: … (6) A description of efforts made to ensure that offers
               are solicited from as many potential sources as is practicable, including
               whether a notice was or will be publicized as required by Subpart 5.2,
               and if not, which exception under 5.202 applies. (7) A determination
               by the contracting officer that the anticipated cost to the Government
               will be fair and reasonable. (8) A description of the market research
               conducted (see Part 10) and the results or a statement of the reason




                                                   7
                  market research was not conducted. (9) Any other facts supporting the
                  use of other than full and open competition ….”

Neither contract W9137B-05-P-0083, 1 valued at $169,999.92, nor W9137B-05-P-0091, 2
valued at $75,000.00, contained the required justification documentation, nor did they
meet the circumstances defined by FAR Part 6.302 as permitting other than full and open
competition.

Office of the Secretary of Defense Political Appointees
Based on a comparison of Office of Personnel Management records and contracts
awarded by NDU from January 2000 through December 2006, we identified three
contracts that NDU awarded to one OSD political appointee—a former Assistant
Secretary of Defense for International Security Affairs. The purpose of the three
contracts was to identify key mission areas for the use of information technology and to
develop operating approaches to maximize the use of information technology
capabilities. The total value of the three contracts was $522,000.

The first two contracts were advertised on a competitive basis. However, as with the
other educational support services solicitations we reviewed, there was only one
recommended source, the only bid received was from the recommended source, and the
award was made to the recommended source. NDU awarded the third contract on a sole-
source basis because only one bid was received for the first two solicitations.

Conclusion
Based on the contracts reviewed, we concluded that NDU’s contracting procedures for
educational support services need to be improved.

    •    Evidence indicated that the SOWs used in the awards of educational support
         services contracts may have been written too narrowly to result in full and open
         competition. If these detailed specifications were justified to meet NDU’s
         specialized missions, NDU should have properly supported the use of these
         specifications and the need for unique or sole-source contracts.



1
  The purpose of the contract was: A study of military innovation post-Goldwater Nichols and the
acquisition reforms of the late Reagan administration years. The study involved whether or not jointness
and acquisition authority centralization hurts, helps, or is irrelevant to military innovation. Year one was to
create stand-alone historical narratives of what happened. Year two was to conclude an evaluation of the
impacts of jointness and other reforms to date, as well as the implications of proposed future organizational
reforms on the innovation process. The final product will be a book manuscript that combines all the work
from both years.
2
  The purpose of the contract was: The case of swine flu proposal seeks support for the final phase of a
long-term research project. The proposal already conducted 40 lengthy, semi-structured, personal
interviews with the scientific decision makers responsible for the swine flu policy in the U.S., Britain, and
Canada. An extensive review of the scientific literature on the influenza is near completion. The proposal
was to complete the analysis of the three-country case study, and report the findings in a book-length
monograph, which will be submitted to an appropriate publisher.


                                                      8
   •   The award of contract W9137B-06-P-0107 to Mr. Feith was a questionable use of
       a competitive solicitation. However, the incoming President of NDU took quick
       and appropriate action to cancel the contract by mutual consent resulting in no
       cost to the Government.
   •   NDU inappropriately used simplified acquisition procedures to purchase services
       that do not qualify for this method because of the nature of the services purchased
       and the estimated value of the contracts. Contracts were also not advertised for
       sufficient periods of time.
   •   In addition, NDU awarded two contracts on the basis of unsolicited proposals
       without adequately justifying the lack of competitive acquisition methods.

Recommendations, Client Comments, and Our
Response
1. We recommend that the President of the National Defense University:

   a. Evaluate current procedures to ensure that appropriate market research is
      applied and statements of work in contract solicitations are properly
      justified, and to identify the qualifications and skills needed by the National
      Defense University without unnecessarily limiting competition according to
      Federal Acquisition Regulation Part 7.102, “Policy.”

Client Comments. The President of the National Defense University concurred and
stated that on April 15, 2008, the National Defense University Contracting Directorate
informed all requiring activities to follow FAR Part 11 when describing needs within a
statement of work. In addition, NDU conducted internal training for contracting and
administrative officials to identify and address overly restrictive requirements.

Audit Response. Client comments are responsive to the intent of the recommendation.

   b. Ensure the proper type of solicitation is used when obtaining educational
      support services including when appropriate, the justification and use of
      sole-source procurement in accordance with Federal Acquisition Regulation
      Part 6.302-1, “Only One Responsible Source and No Other Supplies or
      Services Will Satisfy Agency Requirements.”

Client Comments. The President of the National Defense University concurred and
added that FAR Part 6.302-1 will be used when applicable. Additionally, on April 15,
2008, NDU provided a refresher training course to requiring activities.

Audit Response. Client comments are responsive to the intent of the recommendation.




                                            9
Appendix A. Scope and Methodology
We conducted this performance audit from April 2007 through March 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Although NDU awards different types of contracts in order to fulfill its mission, we
focused our efforts on educational support services contracts because that was the type of
contract awarded to Mr. Feith. We

   •   Obtained from an NDU contracting official a list of 556 educational support
       services contracts valued more than $92 million that were awarded from January
       2000 through December 2006;
   •   Reviewed the events surrounding the award of Mr. Feith’s contract (W9137B-06-
       P-0107); compared it with the U.S.C., FAR, DFARS, and other guidance to
       identify deviations; interviewed appropriate personnel; and reviewed pertinent
       documentation supporting the award of the contract;
   •   Identified 46 additional contracts that contained specifications similar to
       Mr. Feith’s contract and evaluated the 46 contract files against the U.S.C., FAR,
       DFARS, and other guidance to identify deviations from required policies and
       procedures;
   •   Obtained from OPM a list of OSD political appointees that were in place
       October 1, 2000, through June 15, 2007, and compared the list with the
       556 educational support contracts provided by NDU; and
   •   Identified three contracts that NDU awarded to a former OSD political appointee,
       and compared the contracts against the U.S.C., FAR, DFARS, and other guidance
       to identify deviations from required policies and procedures.

We attempted to obtain e-mail traffic between NDU officials and Mr. Feith that may have
been related to the award of the contract. We also obtained records from Mr. Feith’s
NDU computer through DoD Office of the Inspector General’s Office of Intelligence to
determine whether there was correspondence related to the award of the contract. We did
not identify any correspondence directly related to the award of contract W9137B-06-P-
0107.

Based on our audit work, we developed a detailed memorandum describing NDU’s
contracting procedures for educational support services contracts. NDU contracting
officials reviewed the memorandum and agreed with its contents.




                                            11
Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
We did not use technical assistance to perform this audit.

Prior Coverage
No prior coverage has been conducted on this subject during the last 5 years.




                                            12
Appendix B. Laws and Regulations
United States Code
Section 1595, title 10, U.S.C., “Civilian faculty members at certain Department of
Defense schools: employment and compensation,” January 3, 2005:
              Authority of Secretary.--The Secretary of Defense may employ as
              many civilians as professors, instructors, and lecturers at the institutions
              specified in subsection (c) as the Secretary considers necessary.

Public Law
Public Law 101-511, Section 8038, “Department of Defense Appropriations Act,
2008,” October 3, 2007:
              SEC. 8038. None of the funds appropriated by this Act shall be
              available for a contract for studies, analysis, or consulting services
              entered into without competition on the basis of an unsolicited proposal
              unless the head of the activity responsible for the procurement
              determines--
                       (1) as a result of thorough technical evaluation, only one
                       source is found fully qualified to perform the proposed work;
                       (2) the purpose of the contract is to explore an unsolicited
                       proposal which offers significant scientific or technological
                       promise, represents the product of original thinking, and was
                       submitted in confidence by one source; or
                       (3) the purpose of the contract is to take advantage of unique
                       and significant industrial accomplishment by a specific
                       concern, or to insure that a new product or idea of a specific
                       concern is given financial support: Provided, That this
                       limitation shall not apply to contracts in an amount of less than
                       $25,000, contracts related to improvements of equipment that
                       is in development or production, or contracts as to which a
                       civilian official of the Department of Defense, who has been
                       confirmed by the Senate, determines that the award of such
                       contract is in the interest of the national defense.

Federal Acquisition Regulation
FAR Part 2, “Definitions of Words and Terms,” December 24, 2007:
     FAR Subpart 2.101(b), “Definitions”:
              “Commercial item” means --
              (6) Services of a type offered and sold competitively in substantial
              quantities in the commercial marketplace based on established catalog
              or market prices for specific tasks performed or specific outcomes to be
              achieved and under standard commercial terms and conditions. For
              purposes of these services—
                       (i) “Catalog price” means a price included in a catalog, price
                       list, schedule, or other form that is regularly maintained by the
                       manufacturer or vendor, is either published or otherwise
                       available for inspection by customers, and states prices at
                       which sales are currently, or were last, made to a significant
                       number of buyers constituting the general public; and




                                                  13
                      (ii) “Market prices” means current prices that are established
                      in the course of ordinary trade between buyers and sellers free
                      to bargain and that can be substantiated through competition
                      or from sources independent of the offerors.

FAR Part 4, “Administrative Matters,” November 22, 2006:
     FAR Subpart 4.803, “Contents of Contract Files”:

             The following are examples of the records normally contained, if applicable, in contract
             files:
             (a) Contracting office contract file.

             [Not all items are included]

             (1) Purchase request, acquisition planning information, and other
             presolicitation documents.
             (2) Justifications and approvals, determinations and findings, and
             associated documents.
             (5) The list of sources solicited, and a list of any firms or persons
             whose requests for copies of the solicitation were denied, together with
             the reasons for denial.
             (6) Set-aside decision.
             (7) Government estimate of contract price.
             (8) A copy of the solicitation and all amendments thereto.
             (9) Security requirements and evidence of required clearances.
             (10) A copy of each offer or quotation, the related abstract, and records
             of determinations concerning late offers or quotations. Unsuccessful
             offers or quotations may be maintained separately, if cross-referenced
             to the contract file. The only portions of the unsuccessful offer or
             quotation that need be retained are --
             (11) Contractor’s representations and certifications (see 4.1201(c)).
             (13) Source selection documentation.
             (15) Small Business Administration Certificate of Competency.
             (19) Cost or price analysis.
             (22) Justification for type of contract.
             (24) Required approvals of award and evidence of legal review.
             (25) Notice of award.
             (26) The original of--
                       (i) The signed contract or award,
                       (ii) All contract modifications, and
                       (iii) Documents supporting modifications executed by
                       the contracting office.
             (30) Bid, performance, payment, or other bond documents, or a
             reference thereto, and notices to sureties.
             (32) Notice to proceed, stop orders, and any overtime premium
             approvals granted at the time of award.
             (33) Documents requesting and authorizing modification in the normal
             assignment of contract administration functions and responsibility.
             (37) Contract completion documents.
             (38) Documentation regarding termination actions for which the
             contracting office is responsible.
             (40) Any additional documents on which action was taken or that
             reflect actions by the contracting office pertinent to the contract.
             (41) A current chronological list identifying the awarding and successor
             contracting officers, with inclusive dates of responsibility.


                                               14
FAR Part 5, “Publicizing Contract Actions,” September 28, 2006:
     FAR Subpart 5.203, “Publicizing and Response Time”:
             Whenever agencies are required to publicize notice of proposed
             contract actions under 5.201, they must proceed as follows:
             (a) . . . The notice must be published at least 15 days before issuance of
             a solicitation except that, for acquisitions of commercial items, the
             contracting officer may --
                        (1) Establish a shorter period for issuance of the
             solicitation….

FAR Part 6, “Competition Requirements,” September 28, 2006:
     A. FAR Subpart 6.203, “Set-Asides for Small Business Concerns”:
             (a) To fulfill the statutory requirements relating to small business
             concerns, contracting officers may set aside solicitations to allow only
             such business concerns to compete. This includes contract actions
             conducted under the Small Business Innovation Research Program
             established under Pub. L. 97-219.

      B. FAR Subpart 6.302, “Circumstances Permitting Other Than Full and Open
      Competition”:
             The following statutory authorities, (including applications and
             limitations) permit contracting without providing for full and open
             competition. Requirements for justifications to support the use of these
             authorities are in 6.303.

      C. FAR Subpart 6.302-1, “Only One Responsible Source and No Other Supplies
      or Services Will Satisfy Agency Requirements”:
             a) Authority.
                     [Section (1) omitted]
                     (2) When the supplies or services required by the agency are
                     available from only one responsible source, or, for DOD,
                     NASA, and the Coast Guard, from only one or a limited
                     number of responsible sources, and no other type of supplies
                     or services will satisfy agency requirements, full and open
                     competition need not be provided for.
                              (i) Supplies or services may be considered to be
                              available from only one source if the source has
                              submitted an unsolicited research proposal that --
                                       (A) Demonstrates a unique and innovative
                                       concept (see definition at 2.101), or,
                                       demonstrates a unique capability of the
                                       source to provide the particular research
                                       services proposed; . . .

      D. FAR Subpart 6.303-1 “Requirements”:
             (a) A contracting officer shall not commence negotiations for a sole
             source contract, commence negotiations for a contract resulting from an
             unsolicited proposal, or award any other contract without providing for
             full and open competition unless the contracting officer --
                       (1) Justifies, if required in 6.302, the use of such actions in
                       writing;




                                                15
               (2) Certifies the accuracy and completeness of the
               justification; and
               (3) Obtains the approval required by 6.304.

E. FAR Subpart 6.303-2 “Content”:
      (a) Each justification shall contain sufficient facts and rationale to
      justify the use of the specific authority cited. As a minimum, each
      justification shall include the following information:
                (1) Identification of the agency and the contracting activity,
                and specific identification of the document as a “Justification
                for other than full and open competition.”
                (2) Nature and/or description of the action being approved.
                (3) A description of the supplies or services required to meet
                the agency’s needs (including the estimated value).
                (4) An identification of the statutory authority permitting other
                than full and open competition.
                (5) A demonstration that the proposed contractor’s unique
                qualifications or the nature of the acquisition requires use of
                the authority cited.
                (6) A description of efforts made to ensure that offers are
                solicited from as many potential sources as is practicable,
                including whether a notice was or will be publicized as
                required by Subpart 5.2 and, if not, which exception under
                5.202 applies.
                (7) A determination by the contracting officer that the
                anticipated cost to the Government will be fair and reasonable.
                (8) A description of the market research conducted (see
                Part 10) and the results or a statement of the reason market
                research was not conducted.
                (9) Any other facts supporting the use of other than full and
                open competition, such as:
                          (i) Explanation of why technical data packages,
                          specifications, engineering descriptions, statements
                          of work, or purchase descriptions suitable for full and
                          open competition have not been developed or are not
                          available.
                          (ii) When 6.302-1 is cited for follow-on acquisitions
                          as described in 6.302-1(a)(2)(ii), an estimate of the
                          cost to the Government that would be duplicated and
                          how the estimate was derived.
                          (iii) When 6.302-2 is cited, data, estimated cost, or
                          other rationale as to the extent and nature of the harm
                          to the Government.
                (10) A listing of the sources, if any, that expressed, in writing,
                an interest in the acquisition.
                (11) A statement of the actions, if any, the agency may take to
                remove or overcome any barriers to competition before any
                subsequent acquisition for the supplies or services required.
                (12) Contracting officer certification that the justification is
                accurate and complete to the best of the contracting officer’s
                knowledge and belief.




                                          16
FAR Part 7, “Acquisition Planning,” November 8, 2007:
     FAR Subpart 7.102, “Policy”:
             (a) Agencies shall perform acquisition planning and conduct market
             research (see Part 10) for all acquisitions in order to promote and
             provide for--
             [Section (1) omitted]
                      (2) Full and open competition (see Part 6) or, when full and
                      open competition is not required in accordance with Part 6, to
                      optain competition to the maximum extent practicable, with
                      due regard to the nature of the supplies or services to be
                      acquired (10 U.S.C. 2301(a)(5) and 41 U.S.C. 253a(a)(1)).

FAR Part 10, Market Research,” February 12, 2007:
     FAR Subpart 10.001, “Policy”:
             (a) Agencies must –
             [Section (1) omitted]
                      (2) Conduct market research appropriate to the circumstances
                      --
                               (i) Before developing new requirements documents
                               for an acquisition by that agency;
                               (ii) Before soliciting offers for acquisitions with an
                               estimated value in excess of the simplified
                               acquisition threshold;
                               (iii) Before soliciting offers for acquisitions with an
                               estimated value less than the simplified acquisition
                               threshold when adequate information is not available
                               and the circumstances justify its cost;
                               [Sections (iv) and (v) omitted]
                       (3) Use the results of market research to --
                               (i) Determine if sources capable of satisfying the
                               agency’s requirements exist;
                               (ii) Determine if commercial items or, to the extent
                               commercial items suitable to meet the agency’s needs
                               are not available, nondevelopmental items are
                               available that …

FAR Part 11, “Describing Agency Needs,” April 22, 2008:
     FAR Subpart 11.104, “User of Brand Name or Equal Purchase Descriptions”:
             (a) While the use of performance specifications is preferred to
             encourage offerors to propose innovative solutions, the use of brand
             name or equal purchase descriptions may be advantageous under
             certain circumstances.
             (b) Brand name or equal purchase descriptions must include, in
             addition to the brand name, a general description of those salient
             physical, functional, or performance characteristics of the brand name
             item that an “equal” item must meet to be acceptable for award. Use
             brand name or equal descriptions when the salient characteristics are
             firm requirements.

FAR Part 13, “Simplified Acquisition Procedures,” March 22, 2007:
     A. FAR Subpart 13.003, “Policy”:
             (a) Agencies shall use simplified acquisition procedures to the
             maximum extent practicable for all purchases of supplies or services
             not exceeding the simplified acquisition threshold (including purchases


                                               17
             at or below the micro-purchase threshold). This policy does not apply if
             an agency can meet its requirement using –
             [Sections (a)(1, 2, and 3) omitted]
             (b)(1) Each acquisition of supplies or services that has an anticipated
             dollar value exceeding $3,000 ($15,000 for acquisitions as described in
             13.201(g)(1)) and not exceeding $100,000 ($250,000 for acquisitions
             described in paragraph (1) of the Simplified Acquisition Threshold
             definition at 2.101) is reserved exclusively for small business concerns
             and shall be set aside (see 19.000 and subpart 19.5). See 19.000(b) and
             19.502-2 for exceptions.

      B. FAR Subpart 13.5, “Test Program for Certain Commercial Items”:
             (a) This subpart authorizes, as a test program, use of simplified
             procedures for the acquisition of supplies and services in amounts
             greater than the simplified acquisition threshold but not exceeding
             $5.5 million ($11 million for acquisitions as described in 13.500(e)),
             including options, if the contracting officer reasonably expects, based
             on the nature of the supplies or services sought, and on market
             research, that offers will include only commercial items. Under this test
             program, contracting officers may use any simplified acquisition
             procedure in this part, subject to any specific dollar limitation
             applicable to the particular procedure. The purpose of this test program
             is to vest contracting officers with additional procedural discretion and
             flexibility, so that commercial item acquisitions in this dollar range
             may be solicited, offered, evaluated, and awarded in a simplified
             manner that maximizes efficiency and economy and minimizes burden
             and administrative costs for both the Government and industry (10
             U.S.C. 2304(g) and 2305 and 41 U.S.C. 253(g) and 253a and 253b).

FAR Part 37, “Service Contracting,” May 19, 2006:
     A. FAR Subpart 37.103, “Contracting Officer Responsibility”:
             (a) The contracting officer is responsible for ensuring that a proposed
             contract for services is proper. For this purpose the contracting officer
             shall --
                      (1) Determine whether the proposed service is for a personal
                      or nonpersonal services contract using the definitions in 2.101
                      and 37.101 and the guidelines in 37.104;
                      [Section (2) omitted]
                       (3) Document the file (except as provided in paragraph (b) of
                      this section) with --
                                (i) The opinion of legal counsel, if any,
                                (ii) A memorandum of the facts and rationale
                                supporting the conclusion that the contract does not
                                violate the provisions in 37.104(b), . . .

Defense Federal Acquisition Regulation Supplement
DFARS Subpart 206.3, “Other Than Full and Open Competition,” December 15,
2004:
             DFARS Subpart 206.302-1, “Only one responsible source and no other
             supplies or services will satisfy agency requirements”:
             (a) Authority.
             (2)(i) Section 8059 of Pub. L. 101-511 and similar sections in
             subsequent defense appropriations acts, prohibit departments and
             agencies from entering into contracts for studies, analyses, or


                                               18
              consulting services (see FAR Subpart 37.2) on the basis of an
              unsolicited proposal without providing for full and open competition,
              unless—
                       (1) The head of the contracting activity, or a designee no
                       lower than chief of the contracting office, determines that—
                                (i) Following thorough technical evaluation, only one
                                source is fully qualified to perform the proposed
                                work;
                                (ii) The unsolicited proposal offers significant
                                scientific or technological promise, represents the
                                product of original thinking, and was submitted in
                                confidence; or
                                (iii) The contract benefits the national defense by
                                taking advantage of a unique and significant
                                industrial accomplishment or by ensuring financial
                                support to a new product or idea;

The Chairman of the Joint Chiefs of Staff Instructions
Chairman of the Joint Chiefs of Staff Instructions 1800.01C, Enclosure B, “Policies
for Intermediate and Senior-Level Colleges,” December 22, 2005:
              b. Faculty. Faculty members will be of the highest caliber, combining
              the requisite functional or operational expertise with teaching ability
              and appropriate academic credentials.




                                                19
     Appendix C. Comparison of Statements

          Secretary of Defense’s Farewell             NDU Statement of Work                                       Mr. Feith's Proposal
               Speech for Mr. Feith
     1.                                              Recently (within past 4     From July 16, 2001 to August 8, 2005 - that is, within the last four years - served as
                                                     years) have served as a     Under Secretary of Defense for Policy.
            What he [Mr. Feith] and his team
                                                     senior policy maker or
            have accomplished….
                                                     consultant to such policy
                                                     makers
                                                                                                                                                   *
     1a. A plan to revamp America’s                  The revamping of            Was responsible for advising the Secretary of Defense (“SD”) on the strategic
         Global Defense Posture - move               America's Global Defense    considerations for realigning our Global Defense Posture and developing options
         troops, move families, move                 Posture                     regarding facilities, activities, relationships and legal arrangements. Worked with the
         contractors, and facilities from                                        Secretary on evaluating the options and, together with my State Department
         where they were at the end of                                           colleagues, personally conducted consultations and negotiations with our foreign
20




         World War II to the end of the Cold                                     partners.
         War to where they’re needed and
         useable today;
     1b. A NATO Response Force, which                NATO Response Force to Worked with SD to develop the concept. Supervised the work of Assistant Secretary of
         has long been needed, to counter            counter threats and to Defense for International Security Policy who conducted negotiations at NATO
         threats and to deal with crises,            deal with crises       headquarters to create the Force.
         and hopeful deter, and dissuade
         and help in addition to move our
         Alliance into the future;
     1c. Important new security                      Security relationships in   Co-chaired with my Indian counterpart the U.S.-India Defense Policy Group, which met
         relationships in Central Asia               Central Asia and South      at least annually. Co-chaired with my Pakistani counterpart the U.S.-Pakistan Defense
         and South Asia;                             Asia                        Consultative Group, which met at least annually. Was responsible for advising the SD
                                                                                 on U.S. defense relations with all the states of Central Asia and South Asia. Advised
                                                                                 the SD on the development of U.S. strategy in Afghanistan for ousting the Taliban,
                                                                                 destroying Al Qaida in Afghanistan and conducting stabilization and reconstruction.



     *
         Secretary of Defense is abbreviated as SD for the rest of this table.
       Secretary of Defense’s Farewell       NDU Statement of Work                                           Mr. Feith's Proposal
            Speech for Mr. Feith
     1d. Helping to fashion a new National   National Security         Was responsible for the Defense Department's input into the National Security
         Security Defense Strategy that      Strategy, National        Strategy. Helped draft the National Defense Strategy; was responsible for
         helps guide our Department in       Defense Strategy and      coordinating the draft throughout the Defense Department and revising it per SD’s
         planning assumptions for the war    strategy for the GWOT     direction. Was principal author of the briefings that became the foundation for the
         on terrorism as well as our other                             National Military Strategic Plan for the War on Terrorism. Was responsible for the
         responsibilities.                                             Defense Department's contributions to the 2005 White House strategic review of
                                                                       GWOT strategy.
     1e. The training and equipping of       Training and Equipping of Helped create the Defense Department programs for training and equipping various
         foreign forces;                     foreign forces            foreign forces, including in Afghanistan, Colombia, Georgia, Iraq, Pakistan, Philippines
                                                                       and Yemen. Was responsible for the Defense Department's input into the foreign and
                                                                       security assistance allocation work of the State Department.
     1f. The Global Peace Operations         The Global Peace              Helped create the Global Peace Operations Initiative and obtain interagency approval
         Initiative, just to name two or     Operations Initiative         for the President's launching of the initiative.
         three examples of things that are
         being done.
     2.                                      Contractor must be an         Over the last thirty years, I have lectured on national security affairs, diplomatic history
21




                                             adept lecturer and mentor     and international law at academic institutions, think tanks and civic organizations
                                             and nationally recognized     including Harvard University, the U.S. Naval Academy, Johns Hopkins School for
                                             expert, capable of            Advanced international Studies, Georgetown University, the Heritage Foundation, the
20




                                             addressing an array of        Center for Strategic and International Studies, the American Enterprise Institute, the
                                             national security and         Council on Foreign Relations, the World Affairs Council of San Francisco and the
                                             international issues          Middle East Forum. I have provided academic and professional advice to faculty
                                             relevant to our student       members and students. At present, I am a Distinguished Visiting Fellow at the Hoover
                                             bodies, faculties and staff   Institution at Stanford University and I co-chair a task force on strategies for combating
                                                                           terrorism at the Kennedy School of Government at Harvard University. I have
                                                                           accepted a professorship at Georgetown University and will begin teaching there in the
                                                                           fall of 2006. As for Nationally Recognized expertise, I have published many articles in
                                                                           newspapers and journals and written chapters for several books on national security
                                                                           affairs, diplomatic history and international law. I am frequently invited to comment on
                                                                           national security and international issues by U.S. and foreign television, radio and print
                                                                           journalists.
          Secretary of Defense’s Farewell   NDU Statement of Work                                          Mr. Feith's Proposal
               Speech for Mr. Feith
     3.                                     Contractor must have          During the Reagan administration, I developed extensive background in national
                                            extensive background in       security, defense, intelligence and interagency processes. I participated in
                                            National Security Defense     interagency policy making on national security, defense and intelligence matters as a
                                            Intelligence and              White House staffer and later as a Defense Department official. In 1981-2, I served as
                                            Interagency processes         a Middle East specialist on the National Security Council staff. My responsibilities
                                            that produces insights into   included Persian Gulf, Arab-Israeli and North African affairs and energy security policy.
                                            the interagency policy        I then transferred to the Defense Department, where I served as Special Counsel to
                                            making process.               the Assistant Secretary of Defense for International Security Policy and worked on
                                                                          many matters, including U.S. relations with Turkey and Greece and U.S. public
                                                                          diplomacy policy in the Cold War. Secretary of Defense Caspar Weinberger appointed
                                                                          me Deputy Assistant Secretary of Defense for Negotiations Policy in 1984 and my
                                                                          responsibilities included multilateral arms control, U.S.-Soviet affairs and U.N. affairs.
                                                                          During the George W. Bush administration, I increased my experience and
                                                                          background in national security, defense, intelligence and interagency processes as
                                                                          the Under Secretary of Defense for Policy. I was responsible for the Defense
                                                                          Department’s relations with all foreign countries and international organizations and
22




                                                                          with the other departments and agencies of the U.S. government with regard to
                                                                          national security policy. I represented the Defense Department on the Deputies
                                                                          Committee, the government’s highest interagency forum for national security, defense
                                                                          and intelligence matters short of the cabinet level.
     4.                                     Contractor must have          A sample listing of my published works on U.S. national security policy is attached.
                                            published works on the        (Mr. Feith listed 25 of his published works)
                                            U.S. national security
                                            policy.
     5.                                     Experience to meet and        As I believe my resume and the foregoing review of the Evaluation Criteria and my
                                            perform the government's      qualifications shows, I have the experience to meet and perform the government's
                                            statement of work             statement of work.
                                            (Experience is more
                                            important then cost).
     6.                                     Past performance              Having never been party to a government contract of this kind, I have no past
                                                                          performance to evaluate.
      7.                                    Cost                          The total cost of this cost for the Base Year and the three Option Years is
                                                                          $501,774.00.
      Secretary of Defense’s Farewell   NDU Statement of Work                               Mr. Feith's Proposal
           Speech for Mr. Feith
     8.                                 Resumes will be required See my resume, attached.
                                        with contractor's cost
                                        proposal.
23
Appendix D. List of Contracts Reviewed
                                   Estimated
                         Award      Contract
     Contract Number      Date       Value             Purpose of Contract
                                               The contractor will provide strategic
                                               policy forum gaming design,
                                               development, and program support
1   DADW49-02-P-0131   8/29/2002   $134,350    analyst.
                                               The contractor will provide chemical,
                                               biological, radiological, and nuclear
                                               weapons counter proliferation
2   DABJ29-03-P-0203   9/16/2003   $124,990    expertise.
                                               The contractor will provide several
                                               lectures, team-teach an elective on
                                               civil-military relations, provide
                                               advice and counsel, and provide
3   DABJ29-03-P-0209   9/16/2003   $180,000    student mentoring.
                                               The contractor will facilitate,
                                               manage, and enhance participant
                                               discussions focused on Congress
4   W9137B-04-P-0002   10/3/2003   $ 30,000    and the U.S. political process.
                                               The contractor will prepare
                                               curriculum packages to address
                                               topic, identify speakers and
                                               coordinate discussions, provide
5   W9137B-04-P-0003   10/3/2003   $ 30,000    advice, counsel, and mentor.
                                               The contractor will provide
                                               perspective, insights, and expertise
                                               of a senior diplomat to the
                                               conceptualization, development,
                                               execution; and evaluation of Africa
                                               Center seminars, symposia,
                                               workshops, stakeholder, support,
                                               outreach, research, and other
6   W9137B-04-P-0031   1/5/2004    $108,750    programs.
                                               The contractor will begin developing
                                               requirements for Joint and Service
                                               Information Technology
                                               Transformation issue, develop a
                                               strategic action plan that integrates
                                               all components, and conduct
7   W9137B-04-P-0046   2/2/2004    $ 85,000    information technology study.
                                               The contractor will provide the
                                               School of National Security
                                               Executive Education with
                                               15 separate courses for two
8   W9137B-04-P-0050   2/9/2004    $ 93,750    semesters.
                                               The contractor will prepare and
                                               facilitate a 5-day graduate business
9   W9137B-04-P-0093   5/14/2004   $445,237    school executive education.



                                     24
                                   Estimated
                        Award       Contract
    Contract Number      Date        Value             Purpose of Contract
                                               The contractor will provide a
                                               seminar for the contrast between
10 W9137B-04-P-0112   6/15/2004    $ 31,200    Corporate America and the military.
                                               The contractor will identify and
                                               develop policy recommendations for
                                               the use of information technology,
                                               building on the Center for
                                               Technology and National Security
11 W9137B-04-P-0180   9/8/2004     $ 95,000    Policy FY 2004 study.
                                               The contractor will prepare and
                                               deliver weekly lectures and seminar
                                               instruction in American Generalship
                                               and Admiralship for national and
12 W9137B-04-P-0182   9/10/2004    $101,000    military strategy.
                                               The contractor will provide lectures,
                                               team-teach, and provide advice and
13 W9137B-04-P-0193   9/21/2004    $120,000    counsel.
                                               The contractor will prepare
                                               curriculum packages; facilitate,
                                               manage, and enhance participant
                                               discussions; identify speakers and
                                               coordinate discussions of issues;
                                               provide advice, counsel, and act as
14 W9137B-04-P-0195   9/24/2004    $ 60,000    a mentor.
                                               The contractor will assist in
                                               preparation of curriculum packages;
                                               facilitate, manage, and enhance
                                               participant discussion; provide
                                               advice, counsel, and act as a
                                               mentor to Naval War College
15 W9137B-05-P-0010   11/12/2004   $   9,999   faculty.
                                               The contractor will identify, gather
                                               and assess, and research the
                                               advanced technology offers that
                                               significantly impacted the Army's
16 W9137B-05-P-0014   12/7/2004    $ 50,000    past and current fighting forces.
                                               The contractor will provide chemical,
                                               biological, radiological, and nuclear
                                               weapons expertise on combating
17 W9137B-05-P-0034   1/11/2005    $ 85,000    weapons of mass destruction.
                                               The contractor will provide a
                                               program of instruction to include
                                               automated methods, program
                                               management, instructional services,
                                               administrative services, subject
                                               matter expertise, and technical
18 W9137B-05-P-0041   1/12/2005    $471,675    services.




                                       25
                                  Estimated
                        Award      Contract
    Contract Number      Date       Value            Purpose of Contract
                                              The contractor will serve as the
                                              course director and be responsible
                                              for the preparation, implementation,
                                              and updating of the Next Generation
19 W9137B-05-P-0073   3/23/2005   $373,320    of African Military Leaders Program.
                                              The contractor will provide a
                                              collaborative study of military
                                              innovation post-Goldwater Nichols
                                              and the acquisition reforms of the
20 W9137B-05-P-0083   6/16/2005   $399,999    late Reagan Administration years.
                                              The contractor will support the final
                                              phase of a long-term research
                                              project. The contractor will also
                                              complete an analysis of the three-
                                              country case study, and report the
                                              findings in a book-length
21 W9137B-05-P-0091   5/17/2005   $ 75,000    monograph.
                                              The contractor will provide technical
                                              expertise to facilitate at least one
                                              and up to six strategic tabletop
                                              exercises for the Secretary of
22 W9137B-05-P-0104   6/3/2005    $ 14,025    Defense Strategic Policy Forum.
                                              The contractor will provide
                                              substantive expertise for the
                                              National Flagship Language
23 W9137B-05-P-0111   6/13/2005   $399,356    Initiative Political Program.

                                              The contractor will co-author a book
                                              on improving information networks,
                                              attend meetings, conduct interviews,
                                              gather research, and author a
                                              specific chapter on relevant
24 W9137B-05-P-0130   7/21/2005   $ 15,000    technology.
                                              The contractor will continue the
                                              Center for Technology and National
                                              Security Policy study on information
                                              technology in support of stabilization
                                              and reconstruction. The contractor
                                              will also analyze the use of
                                              information technology, information
                                              operations, and intelligence in
25 W9137B-05-P-0193   9/16/2005   $342,000    support of DoD missions.
                                              The contractor will prepare and
                                              deliver weekly lectures and seminar
                                              instruction, research and write a
                                              book, prepare lesson plans, and
26 W9137B-05-P-0195   6/16/2005   $100,000    prepare research projects.
                                              The contractor will research and
                                              analyze China's current
27 W9137B-06-P-0052   4/7/2006    $220,200    biotechnology.




                                    26
                                  Estimated
                        Award      Contract
    Contract Number      Date       Value               Purpose of Contract
                                               The contractor will review and
                                               assess the current deficiencies of
                                               United Nations peacekeeping
                                               operations, develop a proposal, and
                                               prepare a final report of the
28 W9137B-06-P-0070   5/10/2006   $ 22,800     assessment and recommendations.
                                               The contractor will provide software
                                               to support and run the building
                                               direct digital control systems.
                                               Provide on-site training, ensure loop
                                               control systems are analyzed
                                               frequently, and repair and replace
29 W9137B-06-P-0081   5/31/2006   $150,480     failed or worn system components.
                                               The contractor will provide an
                                               individual with the prerequisite event
                                               planning expertise in support of the
                                               tasks related to the Executive
                                               Strategic Gaming Initiative to assist
                                               in invitation of Members of
                                               Congress and the Executive Branch
                                               to participate in strategic-level
30 W9137B-06-P-0083   6/1/2006    $ 172,500    games/exercises and interactions.
                                               The contractor will provide subject
                                               matter and analytical expertise to
                                               the Weapons of Mass Destruction
31 W9137B-06-P-0086   6/2/2006    $   37,200   Center.
                                               The contractor will provide policy
                                               and programmatic support to the
                                               project team, and assist in the
                                               planning and execution of all
                                               aspects of the Space Power Theory
32 W9137B-06-P-0089   6/9/2006    $   96,000   Project.
                                               The contractor will provide strategic
                                               policy forum facilitation support and
                                               short-term, quick-response,
33 W9137B-06-P-0091   6/9/2006    $ 116,744    technical assistance/facilitation.
                                               The contractor will develop
                                               curriculum materials for the short
                                               courses taught, offer a full semester
                                               seminar on the transformation of
                                               interagency operations, research
                                               and author one article, and speak to
                                               interested groups on interagency
                                               transformation in the form of
34 W9137B-06-P-0094   6/23/2006   $ 324,000    seminars and conferences.
                                               The contractor will provide several
                                               lectures, conduct a study, and
35 W9137B-06-P-0107   7/12/2006   $ 501,774    produce a report.
                                               The contractor will develop and
                                               execute a classroom exercise to
36 W9137B-06-P-0117   7/28/2006   $ 110,988    allow course participants to gain



                                      27
                                  Estimated
                        Award      Contract
    Contract Number      Date       Value             Purpose of Contract
                                               understanding of network centric
                                               operational concepts.

                                               The contractor will provide an in-
                                               depth analysis, writing, research,
                                               and publishing on important policy,
                                               planning, programming, and
                                               technology issues facing the DoD,
                                               the U.S. Government, and the North
37 W9137B-06-P-0138   8/24/2006   $   35,000   Atlantic Alliance.
                                               The contractor will teach professors
                                               and staff to perform duties in the
                                               areas of financial management,
                                               administration, logistical support,
                                               protocol, personnel, contracting,
                                               information systems, educational
                                               technology programs, operations-
38 W9137B-06-P-0140   9/5/2006    $1,069,800   type duties, and academic research.
                                               The contractor will provide students
                                               with an understanding and
                                               appreciation of the joint multi-
39 W9137B-06-P-0143   8/31/2006   $ 10,000     service environment.
                                               The contractor will provide an
                                               analysis of chemical-biological
                                               defense testing and evaluation
                                               procedures of the DoD organization
                                               engaged in the development of
40 W9137B-06-P-0153   9/15/2006   $ 41,900     equipment and materials.
                                               The contractor will provide a
                                               consultant for Theater Warfare
                                               Strategic Issues curriculum
41 W9137B-06-P-0155   9/14/2006   $ 66,088     development.
                                               The contractor will participate in the
                                               field of cyberspace and cyberpower
                                               for cultivation for the workshops,
                                               and write draft chapters for a book
42 W9137B-06-P-0159   9/21/2006   $125,000     on cyberspace and cyberpower.
                                               The contractor will provide an expert
                                               consultant for national security
43 W9137B-06-P-0163   9/19/2006   $139,920     policy executive level gaming.
                                               The contractor will produce a 50–
                                               60 page study on the role of the
                                               U.S. Congress during major
44 W9137B-06-P-0164   9/20/2006   $ 45,000     conflicts in U.S. history.
                                               The contractor will provide research,
                                               writing, and consultation on Army
45 W9137B-06-P-0165   9/23/2006   $111,500     Strategies and Techniques program.
                                               The contractor will purchase a
                                               private island in Second Life 3-D
46 W9137B-06-P-0179   9/26/2006   $   5,280    collaborative virtual environment.




                                      28
                                  Estimated
                        Award      Contract
    Contract Number      Date       Value             Purpose of Contract
                                              The contractor will create case
                                              studies that will support the
                                              education of engineers, information
                                              technology professionals, and the
                                              improvement of the cyber security of
                                              the Control System, supervisory
                                              control, and data acquisition
47 W9137B-06-P-0180   9/27/2006   $ 21,600    systems.




                                    29
Appendix E. Congressional Request




                    30
The National Defense University Comments

                                             Final Report
                                              Reference




                  Click to add JPEG file
                                           Revised




                                 31
Click to add JPEG file




               32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Priscilla H. Nelms
John C. Furutani
Abby R. Brakefield
Kelly M. Olson
Meredith H. Johnson
